Supreme Court, U.S.
FILED

WAIVER

OCT 0 9 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-324

Technology Properties Limited LL( `, Huawei Technologies Co., Ltd., et
(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

LG Electronics, Inc.; LG Electronics U.S.A., Inc.

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

October 9, 2019

(Type or print) Name

Joseph B. Warden
0 Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

Fish & Richardson, P.C.

Address

222 Delaware Avenue, 17th Floor

City & State
Phone

Wilmington, DE

(302) 778-8424

Zip
Email

19899-1114

warden@fr.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Kenneth Starr ken.starr@lanierlawfirm.com; Denise DeMory ddemory@bdiplaw.com

RECEIVED
OCT 1 1 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

